No. 19SUPREME COURT OF THE UNITED STATES

UNITED STATES
Appellee
v.
DUSTIN MOSS
Defendant – Appellant
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT

RULE 33 CERTIFICATION

I hereby certify the Petition for Writ of Certiorari filed by DefendantAppellant Dustin Moss complies with the requirements of Rule 33, in that the
document contains 2,490 words, inclusive of all footnotes.

Date: December 20, 2019

/s/ Simon R. Brown, Esq.
By: Simon R. Brown, Esq.
Court of Appeals Bar No. 25463
Preti Flaherty PLLP
P.O. Box 1318
Concord, NH 03302-1318
Phone: (603) 410-1500
sbrown@preti.com
Attorney for Petitioner

15050925.1

